Nos. 19-1231, 19-1241

 

 

IN THE

Supreme Court of the United States

FEDERAL COMMUNICATIONS COMMISSION AND
UNITED STATES OF AMERICA,
Petitioners,
v.
PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.

NATIONAL ASSOCIATION OF BROADCASTERS, ET
AL.,
Petitioners,
v.
PROMETHEUS RADIO PROJECT, ET AL.,
Respondents.

 

On Writs of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF FOR AMICUS CURIAE AMERICANS FOR
PROSPERITY FOUNDATION IN SUPPORT OF
PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,171 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 23, 2020.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
